Nos. 20A64, 20A65, and 20A66

 

 

IN THE

Supreme Court of the United States

JILL SWENSON, ET AL.,
APPLICANTS
v.
THE WISCONSIN STATE LEGISLATURE, ET AL.,
RESPONDENTS

SYLVIA GEAR, ET AL.,
APPLICANTS
v.
THE WISCONSIN STATE LEGISLATURE, ET AL.,
RESPONDENTS

DEMOCRATIC NATIONAL COMMITTEE, ET AL.,
APPLICANTS
Uv.
THE WISCONSIN STATE LEGISLATURE, ET. AL,
RESPONDENTS

TO THE HONORABLE BRETT M. KAVANAUGH,
ASSOCIATE JUSTICE OF THE SUPREME COURT
OF THE UNITED STATES AND CIRCUIT JUSTICE

FOR THE SEVENTH CIRCUIT

MOTION FOR LEAVE TO FILE AND
BRIEF OF ELECTION LAW SCHOLARS AS
AMICI CURIAE IN SUPPORT OF NEITHER PARTY

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the brief contains
4,048 words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).

The motion contained within this publication has 393 words.

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 16, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
